 Department of the Interior
 Office of Inspector General




          Photos courtesy of U. S. Fish and Wildlife Service website


Payments to Counties to Acquire
   Waterfowl Production Areas
   in Minnesota and Wisconsin
        U.S. Fish and Wildlife Service


    Report No. W-IN-MOA-0119-2003
                    September 2005
        Therefore, we have made the decision to proceed with a “County Trust”
        (Trust) that will be established by each seller for each WPA tract that we
        acquire in Minnesota in the future.1 These payments will be made under
        the authority to exceed appraised value that has been delegated to
        Regional Directors for fee tracts acquired under the Small Wetlands
        Acquisition Program.

        We have concerns about the authority of the Regional Director to establish such a
policy. The cited Realty Manual section describes the conditions and circumstances
under which landowners may be paid more than appraised value as compensation for
their property. In the transactions we noted, however, the payments in excess of
appraised value were not made to compensate landowners, but rather to compensate
local governments, which already receive compensation as determined by Congress
under the Refuge Revenue Sharing Act. We therefore suggest that you direct the Fort
Snelling Office to discontinue paying up to 10 percent of fair market value to local
governments when WPA land tracts are acquired, unless a legal basis can be provided for
the policy.

       The legislation, as amended, creating the Office of Inspector General requires
semiannual reporting to Congress on all reports issued. Accordingly, this report will be
included in our next semiannual report. Although a written response to this report is not
required, we would appreciate being advised of your action in this matter.

       We appreciate the cooperation shown by FWS during our review. If you have
any questions regarding this report, please call me at (202) 208-5745.




1
 The trust fund payment procedure was expanded to include acquisitions in the State of Wisconsin in
March 1996.
                                                  2
                                                  .
